 IMP LEMENTATION OF THE STATE

LEGALIZATION IMPACT ASSISTANCE

GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986

                DISTRICT OF COLUMBIA




                   Richard P. Kusrow
                   INSPECTOR GENERAL




OAI.   07-800                          OCTOBER 1989
                               EXECUTIVE SUMMARY


PURPOSE
The purse of ths inspetion was to determe how effectively the Distrct of Columbia
implemented the State Legalzation Impact Assistace Grts (SLIAG)       prgr,  to identiy
potenti problems early in the proess, and to identi goo practices which al States could
shar.
BACKGROUND

The SUAG progr was established under the Imgrtion Reform and Contrl Act (!CA)
of 1986 to reuce the fiancial burn of providig public assistace, public health assistace,
and educational servces to eligiblelegal    alens. In Fiscal Year   (F 1988, $928. mion
in progr fuds wer alocated to States, and fuds wi contiue to be alocate thugh FY
1991. These fuds also cover adstrtive costs for implementig SLIAG at the State and
local levels. Payments ar ma for public assistace activities generay avaible to al
neey individuals and public health assistace servces offer under the States ' public health
prgrs.      The paymnts also cover educational servces designed to assist eligible legalze
alens to att a satisfactory level of performce in school and to achieve English language
proficiency and citizenship skis necssar to beome perment residents. The Famy
Support Admstrtion (FSA) is responsible for     adsterig the progr.
Because SUAG establishes a new prgr, FSA        real    that problems would surace early
in its implementation. In adtion to the normal diculties encountere in cratig new
proesses and predurs, FSA reognze that SLIAG would have unque problems. Some
                                     progr
of these issues include the diversity of       which SUAG encompasses, cultual and
language barer assoiate with the servce population,     matag      confdentialty of
inortion, and the extrmely short ti fres for the grt awar proess.
METHODOLOGY

In respnse to the anticipate diculties with implementig SLIAG, FSA reueste that the
Ofce of Insptor Genera (OIG) conduct reviews in 10 States to determe the progrss of
States ' implementig ths progr The FSA selecte nie States and the Distrct of Columbia
beause of the varety of prgr         they offere the number of eligible legalize alens in the
population  , or the amount of the grt. The nie States ar Arzona, Caorna, Colorao,
Florda Ilois, Masachusett, New York,       Texas, and Washington.

Intervews based on   strctu discussion guides for each major progr       ara, as well as
    umentation fushed by FSA and State and local offcias, built the base of inormation for
this report. Ths report represents the review conducte in the Distrct of Columbia and
reports on its implementation of the SLIAG progr as of August 1988.
Both FSA and the Ditrct of Columbia were commtt to identig problems and
developing inovative and effective solutions for them. Imedately followig our on-site
visits, FSA was given an outle of the State concerns identied in threport The FSA and
the Distrct of Columbia have alady intiate action on some of the fidigs and
reommendations.

FINDING:    Since     FSA ha held national conferences and issued informtion to States
                    1987,

on imlementing the SUAG program.


             The FSA held severa national conferences  begig   in 1987 to shar
             inortion with the States on SLIAG legilation, the implications for States, the
             application    prss,
                               and the doumentation of costs.

             The FSA also prvide States with "Question and Answer" issuances and
             demogrphic data frm the Imgrtion and Natuzation Servce.


FINDING: The District ofColwnia established a strtue to identify organizational and
program needs.


             The Distrct of Columbia Deparent of Hum Servces established a
             Multi-National Eligibilty Unit to determe eligibilty for al noncitizen
             applicants for Aid to Fames with Dependent Chidrn, Genera Assistace,
             Medcaid, and Medcal Charties. Th process is crtical for accurte and
             aduate delivery of servces, and proper application of policy.
             The Executive Dirctor of the Office on Latio Afai is the single point of
             contat for the Ditrct of Columbia. The Ditor of the Office on Latio
             Afai is a cabinet-level position. The placment of the sigle point of contat
             with ths offce ensurd high visibilty for ths  prgr     which is relatively
             sma in most States and could be lost among the larger progrs    adstere
             by the larger agencies.

             Base on curnt registrtion inormation, a large number of eligible legalize
             alen students ar ilterate, which causes problems for plang purses. The
             Distrct of Columbia crated a new progr caled Amesty Orentation which
             adsses literay and citizenship skis simultaeously.
FINDING: The District of Columia also took immdiate steps to document exenditues
and control disbursements.


                A discrete identier cod has been develope which identies a persn as an
                eligible legalze alen. Th number also contaed a th- digit progr code
                for Medicaid which distigushes eligible legalze alens parcipatig in ths
                prgr frm other tys of reipients. These mior modcations to the
                existig computer system alows for accurte identication and documentation
                of individual eligible legalze alens reeivig any
                assistace.
                                                                     ty
                                                                    of income maitenance


                Intr-Distrct agrments establish "buyer" and " seller" relationships between
                ce     Distrct of Columbia
                whie the seller
                                              agencies. The buyer is the agency using the servce
                                        providig the
                                 is the one             sece. Unde the agrments, money
                is not actualy trsferr    to the provider, insted the agrments give the
                provider budget authority. The provider must incur costs and submit vouchers
                to clai reimburement. Ths proess gives the grtee agency much more
                control over the SLIAG funds than in other States wher the grtee agency
                simply trsfers cash to other agencies for SUAG activities. Ths system
                contas a buit- in, ongoing control proess.

                Drwdown of Federa fuds is used to reimbur the Distrct of Columbia
                goverent for expenditus.       There ar no cash balances beause money must
                be expende before reimburment       can be   reuested.



Nevereless, there ar      some funds contrl   vuerabilties.


FINDING: The FSA' s definition of public assistance includes some public health activities
which created adinistratve and service delivery problems for the Distrct of Columia
public health agencies.

FINDING: The District of Columia Commssion on Public Health and the District of
Colwnia Public School System ha not estalished methods to identfy and validate costs for
services and benefits to individual eligible legalized aliens. Without this documentation, the
Distrct of Columia cannot be reimbursed for the      fu    exended.
FINDING: The FSA applicatin review process created a numer of signifcant problems           for
the Distrct of Columia. Also, the FSA's application review process interfered with the
Distrct s   abilty to plan for services.
             Delay in FSA issuig the implementig reguation resulted in the Distrct of
             Columbia s inabilty to properly plan for SUAG.

             Numerous policy misinterpretations and disagrments resulte beause FSA
             did not provide defmitive wrtten instrctions to assist the Distrct of Columbia
             in understadig SUAG application reuiments.

             The tie fres were to shor for submittg the intial SLIAG application,
             FSA review and comment, and revisions of the application.

             Implementig SLIAG- funde       progrwas delayed beause of a signcant
             delay in notig the Distrct of Columbia of the     grt
                                                              award.


No   for appeal proess exits if progrs or costs       ar denied in   the fit   level   review.

FINDING: At the time of the insectin, the District of Columia ha onl informl
guidelines from FSA on determning an claming SUAG adnistrative costs, and the
Distrct of Columia ha not developed methods for determning and documntng these costs.

As mentioned earlier, FSA and the Distrct of Columbia have alady intiate action on some
of the reommndations    ma   in this report. Steps have ben taen by FSA to provide States
with mor spc, form guidelies for identig and doumentig actual progr and
adtrtive     costs. However, adtional actions ar necessar in other aras on the par of
FSA and the Distrct of Columbia.

RECOMMENDATION: The FSA shoul reconsider its position to clasif certain public
health services as public assistance and ma appropriate adjustments to thi position.

RECOMMENDATION: The District of Columia should ensure tha its Commsion on
Public Health and Public School System deelop a method to identify and validate costs for
services and benefits to individual eligible legalized aliens.

RECOMMENDATION: The FSA should ma its application and grant process more
orderly; Specifcally, FSA should


             provide defitive wrtten instrctions on the SLIAG application reuiments
             and establish a dialogue with the Distrct of Columbia on SLIAG policy,
             compliance, and reportg issues to minie the confusion that occur in the
             intial application process;




             ensure that suffcient time is alotted to the application process includig: the
             Distrct of Columbia s initial application , FSA' s review and formal comment,
. .                                                                  ..




                        the Distrct of Columbia s considetion of FSA comments and negotiation of
                        disputes, and its submission of the revise
                                                               application for FSA approval;


                        develop an appeals process to use if progr    or costs associated with providig
                        servces ar denied in the intial application process; and

                        revise thegrt  award proess for approved applications so that the notice of
                        grt   award reaches the Distrct of Columbia prior to thebegig     of the fiscal
                        year.


      RECOMMENDATION:     The FSA should issue wrttn gudelies for determg and
      claig SLIAG          adstrtive
                               costs. Also, the Distrct of Columbia should develop method
      for determg and documentig these costs.



      COMMENTS

      The FSA and the Distrct of Columbia both commente on the            dr
                                                                 report They generay
      agr   with our fidigs and reommndations. Both reported havig taen steps to improve
      implementig SUAG. Their comments ar include verbati
                                         ... .....................
                              ... ..........                       ......... ........
                                             ..................................       .... ....... ... ........................
                                                                                  .......................... ... ............




                                            TABLE OF CONTENTS


EXECUTIVE SUMMARY


I NTR 0   D U   CTIO N    ................................................................................ ...................... 1





DISTRICT OF COLUMBIA' S ORGANIZATIONAL STRUCTURE.....................                                                                   3


FINDINGS AND RECOMMENDATIONS .................................................................. 4


            Pu bll c Ass Isla n ce. ........... ......... ............ .....................................................            5

            Pu bl i c Health Assistance.........                .................................. ................. ........ ...... 8

            Mental Health ..... 
                                    .......................................................... 1 




            Ed ucation                                                                                                   .... .... 12


            Crosscutting Issues ............................................................................... 14

OIG RESPONSE TO COMMENTS ......................................................................... 18



APPENDICES

            APP EN DIX A:           Good Practl ces ....                                        ........ ........ ............... A­


            APPENDIX B: FSA' s Comments ....... ............. ............. ..................... .... B-1


            APPENDIX C: District of Columbia s Comments                                                                           C-1
                                    INTRODUCTION 



PURPOSE
The Famy Support Admstrtion (FSA) reuested that the Ofce of Insptor General
(OIG) conduct an insption in nie States and the Distrct of Columbia to determe how
effectively the States implemente the State Legalzation Impact Assistace Grts (SLIAG)
progr awarde under the Imgrtion Reform and Contrl Act (ICA) of 1986. The
insption included reviewig mehansms in place to identi these funds and determing
whether prsent or prjecte policies and predurs adere to FSA gudelies. The FSA alo
was intereste in identig potential prblems ealy in the process and any goo practices
which al States could shar. Ths repo prsents the results of the inspetion    pertg to the
Distrct of Columbia.



BACKGROUND

Under IRCA, eligible  legal   alens may apply for perment residency with a 1- year
period afr they fIrst beome eligible (Le., by the 31st month afr they reeive tempora
resident status).

Th new   popultion wi incrase the demad for State public assistace and public health

  S. citizens.
assistace seces signcantly. It wi also incras the demand for State educational
servces as these new residents obta English language and civic skis    nee to beome

To help States defry may of the costs of providig public assistace, public health
assistace, and educational seces to eligible legalze alens, IRCA authorize $1 bilon
each year from Fiscal Year (FY) 1988 thugh 1991 for SUAG grts, less an amount
identied as the ' 'Federa offset. " With few exceptions, eligible legalze alens ar ineligible
forfedy fude         public assistace progrs such as Aid to Fames with Dependent
Chidrn (AFC), foo staps, and Medcaid The ' 'Fedra offset" is the estited cost to
the Fedra Governent of providig these servces or benefits to those few legaliz alens
who ar eligible for them. In FY 1988, the law alocate $928. mion to States.

To reeive SLIAG fuds, States must apply to the FSA Division of State Legalation
Assistace, which is respnsible for approvig applications and adstering the program.
The application must be approved in tota for a State to reive any SUAG funds. The FSA
also provides States with tehnical assistace on policy issues and on the methods used to
estimate costs and veriy actual costs.
The basic reuiment for States to clai reimburement is that costs must be alowable,
reasonable, and alocable. State public assistace and public health assistace  progr must
be the same ones avaiable to the gener public. States canot crate new program in these
aras speifcaly for eligible  legal     alens. However, States may crate new or adtional
education progr    for the eligible legalze alen popultion. States may alo clai
reimburment for progr adstrtive and SUAG               adtrtive costs.
Reimburement for public assistace and public health assistace is    liteonly to the amount
of State and local fuds expende for SLIAG-related costs. The     maum   SLIAG
reimburment for educational servces is an average of $500 per year per eligible legalze
alen. Determg progr adnistrtive costs is mad in accordce with the fmal
regution at 45 CF 402. 22.

The FSA is responsible for adsterig the prgr           Because SUAG was a new program,
  real
FSA                       surac early in its imlementation. adtion to the
             that prblems would
nor diculties encounte in cratig new processes and predurs,In FSA reogn
that SLIAG would have unque problems. Some of these issues include the diversity of
progr which SUAG encompasses, cultual and language barers associated with the
sece population, matag confdentity of inormation, and the extrmely short tie
fres       grt award process.
       for the




METHODOLOGY

The FSA selecte  nie States and the Ditrct of Columbia for the inspetion beause of the
varety of progr    offere, the number of eligible legalize alens in the population , or the
amount of the grt. The nine States ar Arona, Caifornia, Colorao, Florida, ilinois,
Massachusett, New York, Texas, and Washington. This repo reviews the Distrct of
Columbia s implementation of the SUAG progr as of August 1988.

Pror to conductig the inspetion , the OIG develope strctu discussion gudes for each
major progr activity at the State and local levels. In conductig ths review intervews
were held with offcials from the Ofce on Latio Afai; the Ofces of the Ditor and the
Controller of the Deparnt of Hum Serces; the Commssions on Social Servces, Public
Health, and Menta Health; and the Distrct of Columbia Pulic School System. In adtion
intervews were conducte at the local level of public assistace, menta health, and education.
       DISTRICT OF COLUMBIA' S ORGANIZATIONAL STRUCTURE


Each State designate a single point of contat to   adte   and coordate the SLIAG
progr. For the Distrct of Columbia, the contact is the Executive Dirtor of the Offce on
Latio Afai.

The grte agency is the Deparent of Human Servces which is responsible for the
drwdown of Fedra fuds, disburment of these fuds to the Distrct of Columbia agencies
provig SLIAG-relate       serces, and   repog expenditus        to FSA. The    Prgr Maager
respnsible for the day-to-day operation of the SUAG progr is locate in the Deparnt
of Hum Servces, Ofce of Speal          Prgr     and Servces. The Deparent of Human
Serces also houses the Commssion on Socal Serces that prvides public assistace
servces, the Commssion on Public Health which fushes public heath assistace servces,
and the Commsion on Menta Heath that is respnsible for menta heath servces.


Educational servces ar prvide by the Distrct of Columbia Public School System.
Cuntly, the Boar of Education is considere the State education agency. Al agencies
below the Boar of Education , includig the Superitendent, mae up the local education
agency. The Diviion of Adult and   Car        Education, Adult and Communty Education
Brach, is respnsible for SUAG education progr             and seces. The brach has nam a
coordator who 
                       progr,
                       admini ste the SLIAG            and works with the single point of contact
and thePrgr                                   pla
                       Maager to ensur that systems ar in       to identi eligible legalze
alens parcipatig in the varous    progr        and that fiancial accountig systems
moded to identi SUAG costs. The coordator also works with the two              priar    distrct
facties prvidig adult education to evaluate the kids of progr nee for eligible
legal                              reuir
                alens and the resoures        to conduct these progrs.
                              FINDINGS AND RECOMMENDATIONS



Both FSA and the Distrct of Columbia were commtted to identig problems and
developing inovative and effective solutions for them.       Imately
                                                                   followig our on-site
visits, FSA was given an outle of the State concerns identied in ths report The FSA and
the Distrct of Columbia have alady intiated action on some of the fidigs and
reommendations.

FINDING: Since       FSA ha held naona conferences an issued informtion to States
                      1987,

on imlementng the SUAG program.


                 The FSA held sever national conferences beginng in 1987 to shar
                 inortion with States on SLIAG legislation , the implications for States, the
                 application pross, and the documentation of costs.

                 The FSA also prvide States with "Question and Answer" issuances and
                 demogrphic data frm the Imgrtion and Natuzation Servce (IS).


FINDING: The District of Columia established a strtue to identfy organizational and
program needs.


                 The Distrct of Columbia Deparent of Hum Servces establihed a
                 Multi- National Eligibilty Unit to determe eligibilty for al noncitin
                 applicants for AFC, Gener Assistace, Medcaid, and Medcal Charties.
                 Th press is crtical for accurte and aduate delivery of servces, and proper
                 application of policy.

                 The Executive Dictor of the Office on Latio Affai is the single point of
                 contat for the Ditrct of Columbia. The Ditor of the Ofce on Latio
                 Afai is a cabinet-level position. The placment of the single point of contact
                 witl this offce ensurd high visibilty for ths   prgr   which is relatively
                 smal in most States and could be lost among the lager progrs adstered
                 by the larger agencies.

                 Based on curnt   registrtion information, a largenumber of eligible legalzed
                 alen students are iliterate, which causes problems for plang purses. The
                 Distrct of Columbia crated a new progr caled Amesty Orentation which
                 adsses literay and   citizenship skils   simultaeously.
FINDING: The Distrct of Columia also took immdiate steps to documnt exenditures
and contol disbursement.


              A discrete identier cod has been develope which identies a persn as an
              eligible legalze alen. Ths number also contaed a th-digit progr code
              for Medcaid which distiguishes eligible legalze alens parcipatig in this
              prgr frm other tys of reipients. These mior modcations to the
              existig computer system alows for accurte identication and documentation
              of individual eligible legalze alens reeivig any   tyof income matenance
              assistace.

              Intr-Distrct agrments establish "buyer" and " seller" relationships between
              ce     Distrct of Columbia agencies. The buyer is the agency using the servce
              whie the selleris the one providing the sece. Unde the agrments, money
              is not actualy  trsferr   to the provider of servces. Instead the agrments
              give the provider budget authority. The provider must incur costs and submit
              vouchers to clai reimburment. This proess gives the       grte    agency much
              mor contrl over the SLIAG funds than in other States where the grtee
              agency simply trsfers cash to other agencies for SLIAG activities.
              system contas a buit- in, ongoing contrl proess.


Drwdown of Feder fuds is used to reimbur the Distrct of Columbia governnt for
expenditus. Ther ar        no cash balances   beause money must be expende before
reimburement can be reueste

Neverteless, there ar   some fuds contrl      vuerabilties.

Findigs and   reommendations concerng these vulnerabilties follow under major topic
aras.   Findigs and reommendations which afect more than one assistace progr are
discussed in the Crsscuttng Issues    section of ths   repo

PUBLIC ASSISTANCE

Assitance or Serve Activities

The Distrct of Columbia offers a number of public assistace programs and servces to its
residents. To be eligible for these servces, an individual must be a Distrct of Columbia
resident There ar no U. S. citizenship reuiments for these     progr.      In fact, a Mayor
Executive Orr prohibits agencies frm askig questions about legal status uness that
                                                                             g;,




inortion is necessar for determg eligibilty for a Federa progr; e. AFC,
Medcaid, etc.

The majorprogr afecte by SUAG ar Medcai Genera Public Assistace to
Unemployables, Genera Public Assistace for Chdrn, Medcal Charties, and Emergency
Assistace. Also, there ar six prgr that adtrtively ar public or menta health, but
for purses of SUAG reimburment were approved by FSA as public assistace. These
progr ar Clcal Heath, Maternal and Chid Health, Alcohol Treatmnt, Drg Treatment,
Denta Servces, and the Multicultu Serces Division. (Te impact of th distiction on
the public health agencies is dicusse in the Public Health Assistace and Menta Health
setions. ) The Distrct of Columbia General Hospita also is considere a public assistace
sece for purses of SLIG reimburment.

The Income Maitenance Admtrtion has 12           dentr
of Columbia. Individuals can apply for most income matenance
                                                             offces thughout the Distrct
                                                                   progr   at any of these
locations. To eas  adstrtive     problems assoate with identiyig individual eligible
legal     alens and to simpliy sta   trg,    a Multi-National Eligibilty Unit was established
to determe eligibilty of al noncitizen applicants for AFC, General Assistace, Medcaid,
and Medcal Charties. Ths unit alo completes al reetermations for contiuing eligibilty
for these progrs for the noncitizen population.

The Distrct of Columbia offcials   th  that  centr     intae for ths popultion is crtical
for accurte and aduate delivery of seces and proper application of policy. The persons
in ths unt have ben spcaly tred on the spial eligibilty issues related to eligible
legal    alens, persons  grte  citizenship under color of law, and peons eligible for
assistace under the Ombus Budget Reconciation Act of 1986.

Documentn of Eligible Legalizd Alien Stats

The singie point of contact and the Income Matenance Admtrtion ar emphasizig the
importce of identig individuals as eligible legalze alens at the tie the application is
taen for benefits or servces. Questions ar asked in a nonthatenig way, and it is
explaied that answers wi not afect eligibilty for the   prgr          nor be used by the INS to
deport them or other members of the household. There is a question on the application which
asks if the individual is a U. S. citizen. If the answer is no, the person is referr to the
Multi- National Unit. If the peon is an eligible legalze alen, a copy of the alen
registrtion car (1- 688, Tempra Resident Ca or 1- 688A, Employment Authorzation
Cad) is mad for the case reord

Program Costs

As mentioned previously, a discte identification number identies an individual as an
eligible legalze alen. The 11 th digit of the Distrct of Columbia identication number is
coded " 5" if the individual is an eligible legalzed alen. Ths number alo contas a
th-  digit progr cod for Medcaid which distigushes eligible      legal      alens
parcipatig in ths prgr frm other reipients. Imlementig these identication
numbers reuied only mior modcations to the exitig computer system whie alowig
for accurte identication of individual eligible legalze alens reeivig any tye of income
matenance assistace. Use of these identication numbers also wi assist public and menta
health   progr that must identiy individual eligible legal alens to document costs, since
may of these patients use Medcaid or Medcal Charties to pay for the servces.

Administratve Costs



The Distrct of Columbia used 20 pent of the tota SLIAG
tota SUAG     adtrtive
                                                           prgr        costs to estite their
                               costs for FY 1988 and FY 1989. The FSA approved the use of
ths 20 percent to estite these costs. However, FSA indicated that ths approval was not a
lie-item apprval and that the Distrct of Columbia would have to veri actual SUAG
adtrtive        costs when claig       reimburement. The FSA has not defmed alowable
SUAG    admini strtive activities nor has FSA issued gudelies for documentig these costs.
The Distrct of Columbia is concered that without any crteria to follow, any method they use
may be questioned in an audit situation. Method for deterg         the actual amount of the
SUAG adstrtive costs in the afecte agencies had not ben develope at the tie of the
review. To estiate progr adstrtive costs in the intial FY 1988 application

percentages were use for each of the progr areas (17 percent for public assistace, 8
percent for public health, etc. ). The FSA approved these computations. When the FY 1988
updte was submitt FSA indicated that there were problems with the percentages use in
the intial application , the updte, and the FY 1989 application. The computations were
realculate and the Distrct of Columbia submitted actual dollar figus for the progr
admstrtive costs for

FY 1988. Whe the Distrct of Columbia is more comfortble with the revised figus, there
is concern with documntation of these costs for audit purses, espially for agencies like
public health that ar not accustomed to tie studies and cost reimburment progrs.
adtion, the   Distrct of Columbia is concerned that FSA initialy approved their methodology
and later disapproved it retroactively.

Qrawdown of Funds and Cash Balances

The Deparent of Human Serces, Ofce of the Contrller drws down Federal fuds,
usually once each quarr, to reimbur the Distrct of Columbia governnt for expenditus.
   re ar no cash balances beause money must be expended before reimburment can
reuested. The accountig system has ben moded to include a fundig soure code for
SLIAG and program codes to identiy the program incung SLIAG expenses.
The Commssions in the Deparent of Huma Servces wi be given budget authority to
obligate a speifc amount frm the SLIAG fund.         Prgr
                                                     agencies wi submit vouchers
monthy to the Controller s Ofce for reimburment. The vouchers provide inormation on
the amount of money obligate for each progr and frm each fudig soure.

Because the Ofce on Latio Afai and the Ditrct of Columbia Public School System
not par of the Deparnt of Hum Servces, intr-Distrct agrments must be prepar
trsfer funds frm the Deparent of Human Servces to these two agencies. Under the
agrments, the seller (the Ofce on Latio Afai or the Distrt of Columbia Public School
System) must incur costs and submit vouchers to clai reimburment. The Deparnt of
Hum Servces      Prgr     Maager must approve the invoices before the Contrller s Ofce
wi pay the invoice.


Th press gives the Deparnt of Hum Serces much mor control over SUAG grt
fuds than ther is in other States wher the         agency simply trsfer cash to other
                                                grte
agencies for SUAG activities. In adtion , there ar no cash balance or advance-of- funds
issues beause agency fuds must be expended before        clai
                                                            can be mad for reimbursement.
The sane priciple is tre of al contrts        awarby the Ditrct of Columbia governent.



PUBLIC HEALTH ASSISTANCE

Assistane or Serve Activities

The Commssion on Public Health provides a number of servces which ar reimburable with
SLIG fuds. The Sexual Assault Follow-Up progr, one of those approved by FSA in the
FY 1988 application, was denied in the FY 1989 application retroactive to FY 1988. Ths
preednt generated considerable concern beause of the serious implications it has for both
FSAand the States.

Retractive diapproval of a program, coupled with retractive disapproval of the
methodology use to calculte progr adstrtive costs discusse unde Public
Assistace, has established an    atmspher of uncerty       and distrst. The Ditrct of
Columbia felt that it is under consideble fiancial rik if costs ar incur for a        prgr
thought to be approved for SLIAG reimburment. The impact is geometrc if anticipation of
reimburment causes the Distrct of Columbia to expnd adtional fuds for other activities.

Documentaton of Eligible Legalizd Alien Stats

Public health agencies, lie income      maitenance agencies, emphasiz the importce of
identiyig an   eligible   legal alen when the person reuests servces. However, no
processes or identier     codes had   ben develope at the tie   of   the review. Using the Income
Matenance Admtrtion mol,           intae and    referralfor wi be revise to ask
spifcaly for th    inormtion,   and eligible   legal alens wi be given identication
numbers.

Program Costs

FINDING: The FSA' s definition of public assistance includs some public health activities
which created adnistrative and service delivery problems for the Distrct of Columia
public health agencies.

Sever prgr        adste    by the Commssion on Public Health             public
                                                                    ar considere
assistace  prgr    for SUAG reimburment                distiction
                                                 purses. The      is impot
beause the identication of a servce as             reuis documentig of costs
                                         public assistace
incur for individual eligible legal alens served H a progr or serce is considere
public health, the population ratio method for establishig costs can be used Applyig ths
method costs ar determed by the peentage of eligible legal           alens in a serce
population to al members of the relevant servce popultion. This percentage is applied to
tota progr costs to determe how much can be reimbur with SLIAG funds.

Whe there is no quarl with the logic of FSA' s defition of public   assistace versus public
health, the distiction crates serous adstrtive and prgrtic           diculties for public
health agencies. These agencies, not the public assistace agencies, must develop and
implement new proesses for identiyig individual eligible    legal     alens in order to
document costs. Public health offcis in the Distrct of Columbia ar concerned that asking
patients about their legal status wi adverly inuence the wigness of patients who are
ilegal residents to access public health servces. These people often enter the countr with
highly contagious diseases such as Hepatitis B and nee tratment imedately. The effect of
ths policy on the public health in general is not known at ths tie.

The Distrct of Columbia note that, initialy, FSA indicate that servces considere "public
health" under the State s public health plan would alo be considere public health for SLIAG
reimburment. Ths position changed in June 1988, n                       rethg
                                                          ssitating a tota          of ways
to distigush public heath frm public assistace for servces provide by public health
agencies. The feeling on the par of the Distrct of Columbia offcials is that by makg this
proess more dicult, States wi not be able to claim reimburment for their costs, which
wi have the effect of seuestering funds.


RECOMMENDATION: The FSA should reconsider its position to classif certain public
health services as public assistance and make appropriate adjustmnts to thi position.
Administratve Costs



Although actual dollar claied for    adtrtive     costs must be documente in some way,
the Distrct of Columbia public health agencies had not develope a method at the tie of the
review.

Most progr adstrtive costs ar par of progr costs for public health. However,
some progr adstrtive costs ar not include in th figu. Intialy, the Ditrct of
Columbia submitt a plan to clai these costs using as an estiate the 8 percent      indit
                                                                                      cost
rate approved by the cognt   Fedra agency. Because of FSA' s concern about ths
computation in the FY 1988 updte and the FY 1989 application, the Distrct of Columbia
realculate these costs and submitt an actual dollar figu.

The Commssion on Public Heath had not determed if attmptig to doument and clai
costs retractively for FY 1988 is cost effective. The delay in the publication of fial
regutions, coupled with the reuiment that may public health
individuals to document costs, has  ma
                                                                   prgr      identi
                                         ths such a labor- intensive and costly effort that the
Distrct of Columbia may not have the resoures nor the tie to prperly doument costs in
orr   to clai reimburment retractively.

Drawdown 01 Funds an Cash        Balanes

The Deparent of Human Servces, Ofce of the Contrller provides the Commssion
Public Health with budget authority to expend a speifc dollar figu under the SLIAG
account. The Commssion must submit vouchers for funds expende in order to         clai
reimburment from the SLIAG account. The        Prgr Maager must approve the vouchers
before the Ofce   of the Contrller wi   authori payment. Since al payments ar       cost
reimburment, there ar    no cash   advance or cash balce issues.




MENTAL HEALTH

Asristance or Serve Activities

The Distrct of Columbia has a separte Commssion on Menta Health. Within ths
Commssion, the-Multicultu Servces Division was established in 1987. The Division is
pry       a communty- bas progr to meet the menta health servce nee of the grwig
Distrct of Columbia  imgrt       population. The goal is to preserve the integrty of the famy,
suppor ethc pride, and assist in adptation to U.S. cultu. The Division provides a wide
rage of both inpatient and outpatient servces includig psychiatrc assessment, medcation
nursing and social services, psychological testing, and individual, grup, and famy therapy.
Documentaton of Eligible Legald Alien Stats

Prgr      offere by ths agency    ar considere public assistace servces for SLIAG
reimburment purses. Individual eligible     legal       alens must be identied to document
costs. When a patient comes to the center for tratment, basic inormation is obtaed,
includig the individual' s legal status. The sta is sensitive in approachig ths question.
May ties it is not dicusse unti there is a trst relationship between the patient and the
counselor. However, at some point durg therapy, legal status is discusse beause it is an
impot strssor and an integr par of therapy. Once it has ben established that the patient
is an eligible legalze alen, a copy of the alen regitrtion car (1- 688, Tempo Resident
Ca or 1-688A, Employmnt Authortion Cad) is          ma       and beomes par of the patient
reor
Program Costs

Patients ar told imedately that there is abilg
                                           system. Diernt method for paymnt
discussed includig Medcar, Medcaid, and Medcal Charties. The Division alady has a
system to identi costs for individual.

Once an individual is identied as an eligible legalze alen , a discrte income matenance
identier cod is  use    There is also a progr cod which identies the fudig soure
SLIAG. Oter fundig soures (e. g., Medcaid) ar shown in the progr cod so only the
apprprate percentage is charged to SUAG. Al fianci inormtion provide to the
counselor is vered by the fianci division with 30 days of the    fit    visit.

Rates for tratment ar determ by Medcar, which views the Commssion on Menta
Health as a hospita with afated clics. Financial statements ar submitted to Medcar in
accordace with the State Menta Health Plan. From these statements, Medcar and the
Commssion agr on a per diem inpatient rate and outpatient tratmnt rates. These rates
could beome actual  prgr     costs for SUAG reimburment.

Th "methodology of deterg        progr costs was repo to the OIG reviewer at the tie
of the on-site inspetion.

Administratve Costs



The Distrct of Columbia has not determed a method to document actual adistrtive
costs. The 8 percent figu used for public health was also used for menta health to compute
progr adnistrtive costs in the initial FY 1988 applicaclon. Ths figu was reomputed
for the FY 1988 update and the FY 1989 application.
Drawdown of Funds and Cash Balances

The Commssion on Menta Health uses the sam press as the Commssion on Public
Health to obta SLIAG fudig. Since al payments ar cost reimbursement, there ar no
cash advance or cash balance problems.


EDUCATION

Assistae or Serve Activis

The Distrct of Columbia clai SLIAG reimburment only for adult education servces.
The Distrct of Columbia Public School System   aly    offers a number of cours in English
laguage and civics skis. Bas on curnt regitrtion inormtion , a large number of the
40 eligible .legalze alen students at the Gordon Adult Education Center ar ilterate, which
prsents speal prblems for plang classes. In response, the Distrct of Columbia Public
                          prgr
School System is cratig a new      Amesty Orentation. Th progr
siultaeously adsses litey and citizenship skis, which eligible legal alens nee
to convert their status frm   tempo to perment.
The Distrct of Columbia Public School System had plaed to provide spal classes for
eligible legalze alens durg the sumr when other adult education clases were not in
session. However, beause the    grt   for the fIrst hal ofFY 1988 was not awarded unti July
25, 1988, these classes could not be offere The lack of fundig also afecte the abilty of
the Distrct of Columbia Public School System to pla for the fal semester.

Although the Distrct of Columbia Public School System plans to contrt for some servces,
no contrts had ben      awar    at the tie of the review. Because the grt was not awarded
unti the end of July 1988, the reuest for prposal was sti being develope The Distrct of
Columbia Public School System hope to have contrts awared by the end of November
1988.

Documentaton of Eligible Legalizd Alien Stats

The Car     and Adult Education Brach has not yet determed how they ar going to identiy
individual eligible  legal alens. Registrtion form have ben moded to reord the alien
regitrtion number. The form will be used to identi individual eligible legaliz alens and
to document costs. The registrtion form also provides inormtion on the student s U.
school attendace. A copy of the alen registrtion car (form 1- 688 or 1- 688A) wi be kept
in the student   s reord.
Program Costs

The Distrct of Columbia Public School System offcials believe there wi be enough students
                                                              legal
in lower-level courses to establih separte classes for eligible      alens, which should
simpliy the doumntation of costs for individual students and the process of determg
progr adstrtive costs.

Matag       an unduplicate count   wi be a brach or division responsibilty. They
prbably crss check   registrtion in dierent progr using the alen registrtion number to
ensur that clais ar not   in excess of the average $500 per eligible   legal   alen per year.



Contrto wi be      reui   to have a   prgr
                                        approved by the INS and to use the alen
regitrtion number for accurtely doumntig costs and ensur no duplication of     ces.

Administratve Costs



The State education agency, which in the Distrct of Columbia is the Boar of Education, can
                          prgr
only charge 1. 5 percent of         costs for SLIG progr adstrtion costs. The Adult
and Ca      Education Brach has not detered how to calculate progr costs, progr
adstrtive       costs, or SUAG adstrtive        costs. They have not established a method for
documentig actual costs in any of these aras. The method they use depends heaviy on the
abilty to establih separte classes for eligible legaliz alens. The Distrct of Columbia
Public School System preferr the establishment of separte classes for eligible legalzed
alens if there were suffcient numbers to wart      these classes. Ths would faciltate
identiying such individuals for cost determation purses. However, regaress of class
strctu, the methodology. use would nee to identi those individual eligible       legal
alens for whom costs would be clamed

Drawdown of Funds and Cash Balances

The Distrct of Columbia Public School System wi enter into an intr-Distrct agrment
with the Deparnt of Hum Servces. The agrment wi               sp  servces to be provided
by the school system in exchange for the money provide by the Deparent of Human
Servces. The agrment gives the school system budget authority, not cash, to expend funds
unde the SLIAG account establihed in the Deparent of Hum Servces. The school
system wi submit vouchers to clai reimburment for any of their fuds expende in
prvidig SLIAG servces. The      Prgr Maager must approve these voucher befor the
Deparent of Human Servces, Ofce of the Contrller wi          authori payment.
CROSSCUTTNG ISSUES
FINDING: The Distrct of Columia Commssion on Public Health and the Distrct of
Columia Public School System ha not estalished methods to identify and validate costs for
services and benefits to individu eligible legalized aliens. Without thi   documntation, the
Distrct of Columiacannot be reimbursed for the      fu   exended.

As note in the setions on Public Health Assistace and Education, the Commssion on
Public Health and the Distrct of Columbia Public School System either have method to
identiy eligible legal   alens or ar developing method. However, these agencies have
not develope systems to doumnt costs for individual eligible      legalalens.

RECOMMENDATION: The District of Columia should ensure that its Commssion on
Public Health and Public School System deelop a method to identfy and validate costs for
services and benefits to indidu eligible legalized aliens.

FINDING: The FSA applicatn review process created a nuer of significan problems for
the Distrct of Columia. Also, the FSA's application review process interfered with the
Distrct's abilty to plan for   services.


              Delay in FSA issuig the implementig reguation resulted in the Distrct of
              Columbia s inabilty to properly plan for SLIAG.

              Numerous policy misinterptations and disagrments resulted beause FSA
              did not provide defitive wrttn instrctions to assist the Distrct of Columbia
              in understadig SUAG application reuiments.

              The tie fres were too short for submittg the intial SLIAG application
              FSA review and comment, and revisions of the application.

              Implementig SLIAG- fude
              delay in  notig
                                            prgr  was delayed beause of a signcant
                             the Distrct of Columbia of the grt award

              No foral   appeals proess exists if   progr or costs ar denied in the fllst level
              review.



Accordig to fmal regulations published Marh 10, 1988, States had to submit the 1988
application no later than May 16, 1988. Revisions to the application had to be submittd by
July 1 ,
       1988, and the FY 1989 application had to be submitte no later than July 15, 1988.
Applications were to contan brief descrptions of the States progrs or servces, estiates
of the States ' SLIAG-relate costs for each progr or activity for that parcular fiscal year
(includig inormation on the number of eligible legalze alens residig in the State), and a
brief explanation of the methodology used to estimate these costs. 



Due lagely to these shan ti fres, FSA provide no            forfeeback on revisions
necessar in the Distrct of Columbia s FY 1988 application. . The inormtion was trsmitted
by telephone or in meetigs. The    tie frs    to make necssar revisions did not
accommodte the organzational     strctu  or the nee to communcate with or sek apprval
frm the progr components impacte by revisions reueste by FSA. Although some
changes had a major impact on   progr    and   grt amounts, the single point of contact
reeived no offcial rationale from FSA for reuestig the changes. Ths could place the
single point of contat or the sta level persn who assum responsibilty for revisions in an
awkwar position should the changes or the amount of the grt be questioned

The FSA would not grt paral fundig nor would FSA conditionaly approve applications.
If changes wer not   main accorce with FSA suggestions, the enti application was
disapproved In adtion, FSA did not prvide the Distrct of Columbia with an appeals
procss when   progrs, costs, or methodologies were not approved The      Distrct of
Columbia had no reour other than to delete the progr entily frm its application or
forfeit al of the SLIAG funds for that fiscal year.

The Distrct of Columbia grt awar notice for the fit hal of FY 1988 was reived in late
July 1988, afr the fit hal of the fiscal year had ende Coupled with the delay in
publishig the reguation, ths ma it dicult for the Distrct of Columbia to     cla
reimburment for much of FY 1988 costs. The Distrct of Columbia wi have to determe if
it is cost effective to retractively identiy actual costs associate with providig servces to
eligible legalze alens.

As of mid- October 1988, the Distrct of Columbia had not reeived the grt awar notice for
either the seond hal ofFY 1988 nor the fit half ofFY 1989. The contiued delay in
offcialy  notig    the Distrct of Columbia of its       awar has crated fiscal problems.
                                                      grt
the Distrct of Columbia, agencies cannot legaly  expend  funds unti fundig soures
crate     Since SUAG was a new progr, agencies could not authorze or obligate fuds
without the grt awar notice.

RECOMMENDATION: The FSA             shoul    ma its application and grant process more
orderly. Specifcally, FSA should


              prvide defitive wrtten instrctions on the     SLIAG application reuirments
              and establish a dialogue with the Distrct of Columbia on SLIAG policy,
              compliance, and reportng issues to minimize the confsion that occur in the
              intial application process;

             ensur that sufcient tie is alotted to the application process includig:   the
             Distrct of Columbia s initial application, FSA' s review and formal comment,
             the Distrct of Columbia s consideration of FSA comments and negotiation of
             disputes, and its submission of the revise application for FSA approval;

             develop an appeals   prss to use if progr or costs assocate with providig
             servces ar                              prss; and
                           denied in the intial application


             revise thegrt award proess for approved applications so that the notice of
             grt    awar reaches the Distrct of Columbia prior to the begig of the fiscal
             yea.


FINDING: At the time of the insectin,   Distrct of Columia ha onl informl
                                           the
guidelinesfrom FSA on determning and claming SUAG adnistrative costs, an the
Distrct of Columia ha not deeloped methods for determning an documntng these costs.

The Distrct of Columbia agencies indicated that the most pressing nee is for form
gudelies which deal with acceptable method of documentig adstrtive costs. The
Distrct of Columbia offcials did not feel sufcient guidelies existed to detenJe alowable
SUAG adstrtive activities. .

The FSA held severa national conferences     begig     in 1987 to shar inormation with States
on SLIAG legislation, the implications and effects of the legilation on the States, the
application pross, and most reently the documentation of costs. As par of ths effor FSA
prvide the States with progr inoration via "Question and Answer" issuances and
demogrphic data from the INS. Yet, accordg to the Distrct of Columbia, "question and
answer" issues ar not enough and more foral guidelies ar neeed

The Distrct of Columbia Commssions on Socal Servces, Public Health and Menta Health,
as well as the Distrct of QJlumbia Public School System, reognze the nee for captug
adtrtive       costs. However, at the tie of the review, they had not develope
methodologies to do ths.

The Distrct of ColumbIa -agencies must reogniz that there ar litations on the dition
that FSA can provide. Guidelies must be flexible enough to accommodte vartions in State
systems and interal presses. Ultitely the Distrct of Columbia, as the grtee,
respnsible for development and implementation of SLIAG progr activities, and for fiscal
documentation of costs and expenditus.
RECOMMENDATION: The FSA shoul issue written guidelines for determning and
claiming SUAG adnistrative costs. Also, the Distrct of Columia should develop methods
for determning and documntng these costs.
                          OIG RESPONSE TO COMMENTS


The FSA and the Distrct of Columbia both commente on the          dr report.
The FSA

The FSA has genery      agr with the OIG repo fidigs and reommendations. The FSA
has taen   a number of steps to improve implementig the SUAG progr includig
clarg prgr policies and prurs.                We have moded cert           asts of the report
bas on the comments reived         frm FSA.


The FSA questioned the statement that the new population would signcantly incras public
assistace and public heath assistace servces. Early estiates indicate that large numbers
of alens would qual to access the SLIAG        prgr.  J"e report      reogn
                                                                          that inoration
obtaed durg the review      deteed    that substatial incrases in woroad and
expnditus could occur in these aras as well as in education. However, we understad from
rent discussions with State offcis that demand for servces nationaly is        falg
                                                                                behind
earlier projections.

The FSA' s   defition of public   assistace includes   some public health activities which crated
adstrtive and serce deliver prblems for the Distrct of Columbia public health
agencies. The OIG reommende that FSA reonsider this position.

The FSA replied that they se th priary as an issue of cost identication and that they
work with the States to develop method of documentig costs which ar consistent with
FSA' s respnsibilties as stewar of public fuds. We believe that FSA's actions to identiy
alternative method is responsive to our conces.

We contiue to believe that a strct intetation which         pets    public health costs to be
clai     only for spc       eligible legalze alens is burdensome to the States and, in many
cass, would   reui     considerable revisions to the States ' system or statutory reuiments.
However, we do    agr    that FSA' s use of alternative systems, such as the Cost Documntation
System and a revied poulation ratio method system which reflects usage, would be a
positive effor to enhance cost effectiveness withou,    reuig      States to develop new systems
or mae consideble reviions to present systems. The population ratio method could be
revied to consid not only eligible legalze alens in the servce population but also use of
those servces by eligible legalze alens. Where appropriate, other alternatives might be
used which would prouce a more effcient system for the States and addss congrssional
intent that the States would not be  reuir     to establish new or elaborate systems.
We report that no   for appes proess exists if progr costs     ar denied in   the fit   level
review. We agr with FSA' s statement that the Grant Appeals Board does have jursidiction
over mattrs for witholdig and repayment of SLIAG funds. However, it was the States
concern that an effective appes mechansm be in place for issues involvig progr
costs at the fit level of FSA' s review in the application press.


The FSA ma    numus comments to clar cert matt            of fact, policy, or procedur.
We have include   these commnts verbati in Appendi

The Ditrt 01 Columbia

The Distrct of Columbia agr    with the DIG report findings and reommendations. Their
comments ar include verbatim in Appendi C. Since the time of the on-site review, the
Distrct has taen steps to fulf stag nee and the designation of a new SUAG
coordator.
 APPENDIX A



GOOD PRACTICES

A number of pratices   have   ben identied that other States could shar.

    Based on curnt registrtion inormation, a large number of eligible legalze alen stu­
    dents ar ilterate, which causes problems for plang purses. The Distrct of Colum­
    bia crate a new    prgr   caled Amesty Orentation which adsses both literacy ' and
    citinship ski simultaeously.


    Intr-Distrct agrments establish " buyer" and " seller" relationships between cert Dis­
    trct of Columbia agencies. The buyer is the agency using the servce whie the seller
    the one providig the sece. Unde the agrments, money is not actualy trsfelTed to
    the provider of servces, inste the agrments give the provider budget authorty. The
    prvi      must incur costs and submit voucher to claim reimburement. Th pross
    gives thegrte     agency much more contrl over the SUAG funds than in other States
    wher the grantee agency simply trsfers cash to other agencies for SLIAG activities.
    Th system contas a buit- , ongoing contrl proess.

    The Distrct of Columbia Deparnt of Huma Servces established a Multi- National El­
    igibilty Unit to determe eligibilty for al noncitin applicants for AFC, Genera As­
    sistace, Medcaid, and Medcal Charties. Ths process is crtical for accurte and
    aduate delivery of servces, and proper application of policy.

    The Executive Dirtor of the Ofce on Latio Afai is the single point of contact for
    the Distrct of Columbia. The     Dito  of the Ofce on Latio Afai is a cabinet- level

    position. The placement of the single point of contact with ths offce ensur high visi­
    bilty for ths progr which is relatively sma in most States and could be lost among
    the larger progr adstere by the larger agencies.


    A discrte identifier cod has ben develope which identies a persn as an eligible le­
    galze alen. Th number also contaed a th-digit progr code for Medcaid
    which distigushes eligible     legal
                                       alens parcipatig in ths progr from other
    tys of  repients.   These minor modcations  to the existig computer system alows
    for accurte identication and documentation of individual eligible legalze alens re­
    ceivig any tye of income matenance assistace. 

Drwdown of Fedra fuds is used to reimburse the Distrct of Columbia governent
for expenditues. There ar no cash balances beause money must be expende before re­
imburment can be reueste
 APPENDIX B



FSA' S COMMENTS

                                                 ((

                                                                                    APPENDIX B



           DEPARTMENT OF HEALTH & HUMAN SERVICES                    .mily SU5:port Administration




                                                                    Memorandum
Date;       June 27, 1989

From:
            Acting Assistant Secretary

              for Family Support


Subiect:
            OIG Draft Report: Implementation of the State Legalization

            Impact. Assistance GrantsUnder the Immigration Reform and
            Control Act of 1986 - District of Columia (OAI-07-88-00444)
To:
            Richard P. Kusserow

            Inspector General


            Attached are the Family Support Administration coments
            the above draft report. Many of our comments are technical
            in nature due to the complexity of the legislation and the

            fact that the SLIA
 program was very new at the time
            rev iew.                                                     of the

            We appreciate the assistance and cooperation we have

            received from you in response to our request to. conduct this
            round of reviews of the SLIAG program. The reports  we
            received are very useful to us in understanding how States
            are implementing the   program.

                                          !it.
                                            r n

                                                      I, ,   f/
                                                                  /L-r
           Attachment




                                             B-1

                         OIG DRA     REPORT:
Implementation of the state Legalization Impact Assistance   Grants
Under the Immigration Reform and Control Act of 1986:
                       District of Columia
The Family Support Administration'  s comments are divided into
three sections: Comments    on background information and other
narrative material that does not relate directly to the draft
report I s findings, comments on the -findings, and responses to the
draft report I s recommendations.

Narrati ve:


Page 1 (Background) -- The draft report says, "This new
population will increase the demand for state public assistance
and public health assistance services significantly. n The draft
report isn't clear whose conclusion this is or upon what data and
analysis the conclusion is  based. The final report should
clarify these points.

In the course of implementing SLIAG, we have discovered that
neither State and local public health programs nor, with few
exceptions, public assistance programs, inquire about legal
status.   This suggests that at least some aliens were using these
services before legalization and that newly legalized aliens do
not represent a " new population" for public assistance and public
health assistance services.   Preliminary cost data from States
suggests that newly legalized aliens are accessing public
assistance services at rates far lower than the general
population. There . are indications that a backlog of public
heal th needs existed and was identified during the medical
examinations required of all applicants for legalizations.
However, there is no data to suggest that, other than this
temporary bulge in demand for public health services, newly
legalized aliens will generate a significant increase in demand
for public health assistance or public assistance services.
Page 4 (Findings and Recommendations) -- The draft report   says,
"Since 1987, FSA has held national conferences and issued
information to States on implementing the SLIAG program.    Since
the OIGl s onsite visits in August 1988, we have continued to
provide assistance to States. We have conducted several more
workshops and meetings to assist states in implementation. In
October 1988, we issued a compendium incorporating the extensive
formal guidance previously provided to States on methods of cost
documentation. We also have provided assistance to individual
States in the form of correspondence, telephone consultation, and
ohsi te technical assistance. We are in the process of conducting
initial program re iews of the major States, and intend to visit


                               B-2
 .. .                                                       ...) -­



the District of Columbia and selected other states as well. We
request that the final report reflect this contin ing dialogue
wi th states.

Page 10 (Public Health Assistance: Administrative costs
The draft report says, "The Commission on      Pulic
                                                 Health had not
determined if attempting to document and claim costs
retroactively for FY 1988 is cost effective.   The District of
Columbia can claim costs for those public health programs for
which they are using the population ratio method without
documentation. We have provided guidance to States on various
approaches to establishing actual costs on behalf of individuals,
including extrapolation from partial year data, statistical
sampling, and using comparable programs in other States or
jurisdictions as a basis. We are continuing to work extensively
with states to help them establish costs for periods during which
they did not have tracking systems in place.

Page 12 (Mental Health: Program Costs) -- In the discussion on

how patient rates are determined, the draft report says,

    Medicare and the Commission agree on a per diem inpatient
rate and outpatient treatment rates. These rates become actual
program costs for SLIAG reimbursement.    We are unclear as to
what the report intends to    say.The rates can become the basis
for determining SLIAG-related costs, but do not automatically
become the costs because other factors (e. g.,      sliding scale fees,
insurance, etc. ) may determine what portion of the rate is an
allowable SLIAG cost.

Page 13 (Education: Administrative Costs) -- The draft report
says,          liThe Adult and Career Education Branch has not
establ ished a method for documenting actual costs.... The method
they use depends heavily on the ability to establish separate
classes for eligible legalized aliens.             We are uncertain as to
why the draft report says that the.. District of Columbia needs
separate classes for eligible legalized aliens in order to
document costs. They only need to identify as eligible legalized
aliens those persons they are claiming costs for. There is no
need to establish separate classes. 
           lease document and explain

this claim more fully. Without a documented context, it makes no

sense.



Findinas:

Finding:	 The FSA' s  definition of public assistance includes some
            public health activities which creates administrative

                                 B-3
          and service delivery problems for the District of

          Columbia public health agencies.


Comments: We question how the definitions of public health and
          public assistance create service delivery problems for
          the District of Columbia public health agencies.
          law and regulation, all programs or acti vi ties under
          both categories must be generally available.
          practice, this means that SLIAG funds are available
          only to reimburse costs in ongoing, generally available
          programs. In most programs, immigration status is not
          a condition of eligibility. If the alien is eligible
          for services, he or she would -receive those services
          regardless of whether they were reimbursed under SLIAG.
          The final report should . clarify this point.

         The draft report notes that "there is no quarrel with
         the logic of FSA' s definition of public assistance
         versus public health, " but does not explain that logic
         or why OIG recommends that FSA reverse its logic. The
         final report should explain that the regulatory

         definitions of public assistance and public health

         assistance are based directly on IRCA.


         Programs of public assistance are defined as programs
          that " provide for cash, medical or other
         assistance.. . desianed to meet the basic subsistence or
         health needs of individuals " (section 204 (j) (2) (A)
         emphasis added). Consistent with IRCA' s explicit
         inclusion of medical assistance under the public
         assistance category, state or locally funded programs
         that provide medical treatment to needy individuals are
         public assistance.
         IRCA defines programs of public health assistance. as
         programs which " provide   public health services,
         including immunizations for immunizable diseases,
         testing and treatment for tuberculosis and sexually­
         transmitt$d diseases, and family planning services"
         (section 204 (j) (3) (A) )  These statutory definitions
         and the legislative history indicate that Congress
         intended to allow certain traditional public health
         functions under the public health assistance category
         and medical assistance to the needy under the public
          assistance category. In    implementing SLIAG, we have
         followed that statutory framework. We have defined
         public health assistance as, among other things,
         programs or activities that " are provided for the
         primary purpose . of protecting the health of the general
         public" (45 CFR 402. 2).    The scope of programs included
         in that regulatory definition of public health
         assistance goes far beyond the specific activities
listed in the Immigration Reform and Control Act of

1986 (IRCA), which created SLIAG.


Regarding the draft report' s concern that aliens " often
enter the country with highly contagious diseases and
need treatment immediately, " the final report should
note that the treatment of dangerous contagious
diseases, including tuberculosis and sexually
transmitted diseases, is included in the statutory and
regulatory definition of public health assistance.

The public assistance/public health assistance
categorization issue is primarily one of cost
documentation requirements, not the allowability of
costs associated with any particular health program.
The report notes that District of Columbia officials
feel that because of this issue, "States will not be
able to claim reimbursement for their costs, which will
have the effect of sequestering funds.   Without the
distinction between categories, the District of
Columia would likely use the population ratio method
to establish costs for all programs run by the
Commission on                    Pulic Health. Implicit in this
                                                method
is the assumption that eligible legalized aliens will
access programs in the same frequency and at the same
cost as the general population. We do not believe this
assumption to be appropriate for medical assistance
programs that provide treatment to needy individuals.
To the contrary, the information that we have to date
indicates that al owing use of the population ratio
method for these programs generally would overstate
costs, dramatically in some cases. However, we would
be willing to allow use of the population ratio method
for any program for which there is an 
                emoirical basis
to indicate that doing so would not                  overstate costs.

FSA realizes that many public assistance and public
heal th programs don't routinely collect information on
immigration status, but, we have found that many do
collect social security                   numers.
                                    That is why we funded
and devoted substantial staff resources to developing a
system that will match the social security numbers of
 rogram participants with those o newly legalized
aliens.  This system will give states information on
the number of newly legalized aliens participating in a
program and the cost of services to them. It is now
available and allows states to establish costs for FY
1988 as well as current and future years. Recently, we
sent state SLIAG Single Points of Contact suggestions
for other possible methods for establ ishing costs.
None of these al ternati ve methods would require setting.
           up new administrative mechanisms or checking status of

           all program participants.

           We will continue to work closely with the District of

           Columia to develop methodologies to document costs for

           all programs in its approved applications.


Finding:   The FSA application process created a numer of
           significant problems for the District of Columbia.
           Also, the FSA' s application review process interfered
           with the District' s ability to plan for services.
Comments: The draft report says that   the. time period for
           submission, review, revision and approval of the
           initial application was too short. We agree that it
           would have been preferable to have had a longer period
           of time between the publication of the final regulation
           and the deadline for submission and approval of FY 1988
           and FY 1989 applications. However, the final report
           should note that, because of the way IRCA set up the
           allocat on formula, one major reason for the compressed
           timeframe was that we could not award funds to any
           state until all" States' applications had been approved.
           In order for us to run the allocation formula, which
           IRCA requires to include estimates of costs, we must
           have approved estimates for all states before we can
           calculate states' allocations.

           The draft report says that " numerous policy

           misinterpretations and disagreements resulted because

           FSA did not provide definitive written instructions to

           assist the District of Columbia in understanding SLIAG

           application requirements.    Had there been more time,

           we would have communicated more extensively in writing.

           Comments on the District' s FY 1989 application were

           made in writing in response to the District' s request.



           The report says no formal appeals process exists if

           programs or costs are denied. The Grant Appeals Board

           has jurisdiction over issues related to the wi thholdinq
           and repayment of funds. For other matters, the state

           may follow normal procedures for disagreeing with an

           agency finding.
Finding:   At  he time of the inspection, the District of Columbia

           had only informal guidelines from FSA on determining

           and claiming SLIAG administrative costs, and the

           District of Columbia had not developed methods for

           determining and documenting these costs.



                                B-6
Comments:	 Several methods for determining the share
             administrative costs in ongoing programs that are
             allocable to SLIAG and which are acceptable 	 a Driori

             are specified in the regulation at 45 CFR 402. 22 (b) .
             Addi tional quidance is offered in the manual
             "Establishing and Documenting Actual Costs, " October
             1988, Modules 8 and 9. The process of determining
             SLIAG administrative costs, like all costs associated
             with administering HHS grants, is governed by 45 CFR
             Parts 74 and 92 and relevant OMS circulars.
             We would like to note that this comment applies to the

             draft report. s discussion under public assistance
             administrative costs (p. 7) and public health
             assistance administrative costs   (p. 10).    We ag ee with
             the draft report' s assertion that " (UJ 1 timately the
             District of    Columia, as the qrantee, is responsible
             for. . . fiscal documentation of costs and expenditures.
Three of the draft report' s recommendations propose action on the

part of FSA:


Recommendation: The FSA     should reconsider its position to
             classify certain public health services as public
             assistance and make appropriate adjustments to this
             position.
Response:	   As discussed above, the primary issue relating to the
             definitions of public assistance and public health
             assistance is one of cost documentation. States would
             like to use the population ratio method for all
             programs run by their health departments. The final
             report should clarify whether the OIG is recommending
             that we allow use of the population ratio in programs
             where, as discussed above, its use would likely
             overstate actual costs.
             We believe that using the population ratio method for

             all health department programs would be inconsistent

             with our responsibility to exercise fiscal

             responsibility in administering SLIAG   funds. However,
             we recognize that some states may encounter

             difficulties in establishing actual costs, especially

             where ELAs are a small percentage of a State' 

             population or for programs that few ELAs access. We

             will continue to work with States to ensure that a

             method is available to allow them to establish actual

             costs for each program in their approved applications,
             consistent with our responsibilities as stewards of

             public funds.

                                    B-7
..




     Recommenda t i on:   The FSA gran t process should be made mor
                       orderly.
     Response:	 The draft report' s recommendation refer$ to the
                 FSA grant process, but the specifics indicate that
                 it is referring to the SLIAG application and grant
                 award process. The language of the recomendation
                 should be more specific. 

                We agree that the application process should be
                conducted in a more orderly fashion than was the
                case for the initial submissions. As the draft
                report indicates, the timeframes for the FY 1988
                and FY 1989 application processes was necessarily
                 short. In effect, the States and we had to
                complete two appl ic tion processes in less than a
                year. We do not expect similar problems for the
                FY 1990 and FY 1991 application processes.

                To ensure that States have adequate time to
                prepare their FY 1990 applications based on
                empirical data, we have extended the deadline from
                JUly 15 to October    1.
                                       Additionally, we have
                encouraged States to submit. as early as possible
                any new programs, questions, or issues, and have
                advised them that they may submit all or portions
                of their applications at any time prior to the
                deadline.
                In order to reduce the possibility of
                misunderstanding, we have advised States that we
                will  com nicate all substantive questions and
                concerns on their FY 1990 applications in writing,
                as was done for States' end-of- year reports. We
                issued extensive written guidance on the FY 1990
                appl ica tion process and the standards we will
                apply



                The draft report also recommends that we develop

                an appeals process to use if programs or costs

                associated with providing services are denied in

                the initial applications process.   We do not
                believe such a process is necessary. The

                Department' s Grant Appeals Board has jurisdiction
                over cases involving the repayment or withholding

                of funds. Normal channels within the Department
                are open to States that disagree with decisions
                made during the course of application review.
     Recommendation: ' The FSA should issue written guidelines for
                          determining and claiming SLIAG
                          administrative costs.
Response: Our comments under Finding #4 specify the
          guidelines offered to States in the regulation and.
          in subsequent written guidance.
          APPENDIX C



DISTRICT OF COLUMBIA' S COMMENTS

                                                                                                     APPENDIX C




                                      GOVERNMENT OF THE DISTRICT OF COLUMBIA
                                                  EXECUTIVE OFFICE OF THE MAYOR
                                                     OFFICE ON LATINO AFFAIRS
                                                     REEVES MUNICIPAL CENTER

                                                  2000 I.TH STREET. N. W. - SECOND FLOOR

                                                             WASHINGTON. D. C. 20008

                                                           TELE HONE 12021 838-8785




                                                          August 9. 1989


Richard P. Kusserow

Ins pector Gene ra 1
  S. Department of Heal th and Human Services
Washington. D.         C.
                   20201

Dear Mr. Kusserow:


     We have reviewed your offi ce ' s draft report on imp1 ementati on of the
SLIAG program and found it to be a fai rly accurate representa ti on of the
status of          the
                 Distri'ct of Columbia        implementation of          State               the
Legalization Impact Assistance program as of the end of last               The              sumer.
few errors.. which naturally occur during brief site visits. in no way
take away from              the
                     description. which is fair and sound. We ' had not
planned to submit coments. but are sending you this letter at Mr. Hugh
Owens s request.

     This spring the District of Columbia Department of Human Services 


which serves as grantee and administering agency and will soon become
Single Point of Contact as well -- completed hiring staff for its SLIAG
unit.   Ms. Gayle Smith -- a DHS staff member of long standing who has
worked on SLIAG since its inception -- is coordinator of the new unit.
Shoul d    yourequi re i nfonna ti on                 status of SLIAGon the current
implementation. please do not hesitate to call Ms. Smith. 202- 673- 3420

                                                     Si         re1Y.

                                                 cs-e
                                                  Susan B. But1
                                                     SLIAG Coordinator/OLA





                                                                           C-l
